<html>
<title> - FROM HEALTH CARE ENROLLMENT TO TAX FILING: A PPACA UPDATE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                       FROM HEALTH CARE ENROLLMENT TO TAX
                             FILING: A PPACA UPDATE

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON HEALTH CARE,
                   BENEFITS AND ADMINISTRATIVE RULES

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 26, 2015

                               __________

                            Serial No. 114-6

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
 
                                ___________
                                
                                
                    U.S. GOVERNMENT PUBLISHING OFFICE
94-054 PDF               WASHINGTON : 2015                    
_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="aec9dec1eecddbdddac6cbc2de80cdc1c380">[email&#160;protected]</a>  
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
      Subcommittee on Health Care, Benefits & Administrative Rules

                       JIM JORDAN, Ohio, Chairman
TIM WALBERG, Michigan                MATT CARTWRIGHT, Pennsylvania, 
SCOTT DesJARLAIS, Tennessee              Ranking Member
TREY GOWDY, South Carolina           ELEANOR HOLMES NORTON, Distict of 
CYNTHIA M. LUMMIS, Wyoming               Columbia
MARK MEADOWS, North Carolina         BONNIE WATSON COLEMAN, New Jersey
RON DeSANTIS, Florida                MARK DeSAULNIER, California
MICK MULVANEY, South Carolina, Vice  BRENDAN F. BOYLE, Pennsylvania
    Chair                            JIM COOPER, Tennessee
MARK WALKER, North Carolina          MICHELLE LUJAN GRISHAM, New Mexico
JODY B, HICE, Georgia                Vacancy
EARL L. ``BUDDY'' CARTER, Georgia

                       Sean Hayes, Staff Director
                           Sarah Vance, Clerk
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 26, 2015................................     1

                                WITNESS

Mr. Kevin Counihan, Director and Marketplace Chief Executive 
  Officer, Center for Consumer Information and Insurance 
  Oversight, Centers for Medicare and Medicaid Services, U.S. 
  Department of Health and Human Services
    Written Statement............................................     4
    Oral Statement...............................................     6


       FROM HEALTH CARE ENROLLMENT TO TAX FILING: A PPACA UPDATE

                              ----------                              


                      Thursday, February 26, 2015,

                   House of Representatives
        Subcommittee on Health Care, Benefits, and 
                              Administrative Rules,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Jim Jordan 
(chairman of the subcommittee) presiding.
    Present: Representatives Jordan, DesJarlais, Meadows, 
DeSantis, Mulvaney, Walker, Hice, Carter, Cartwright, and 
DeSaulnier.
    Also present: Representatives Cummings, Connolly, and Lujan 
Grisham.
    Mr. Jordan. The subcommittee will come to order.
    We are pleased to have Mr. Counihan here today, who is the 
Director and CEO of Marketplace and Exchanges. We are glad to 
have you here, but we are disappointed that much of the 
information that the committee has been requesting, primarily 
through Congressman Meadows office, has yet to be provided to 
the committee. So, Mr. Counihan, you are going to get some 
questions about that.
    Beginning on December 8th of last year, Chairman Meadows 
staff started requesting detailed information on Obama Care 
enrollment. The Administration's response to this basic data 
request has been nothing short of ridiculous.
    We met with Mr. Counihan on January 9th. He told us 
repeatedly that he wanted to make sure we got the information 
we requested. Of course, it is not a surprise that last night 
the Administration came out with another enrollment update. So 
we hope the witness today answers some basic questions, like 
how many people were automatically enrolled in their health 
care plan; how many Americans actively use the health care law 
and how many are now passive participants in what the law 
forces them to do; how many of them were automatically enrolled 
in another plan; and a host of other questions we hope to get 
answered.
    Of those who automatically enrolled, did CMS place people 
in new plans if their old plans were no longer available? Who 
made that decision? How was the new plan chosen? Was any 
analysis done of whether these new plans had different 
benefits? Was any analysis done of whether an individual would 
need to see a different doctor?
    We are still seeing problems with Healthcare.gov. Last week 
the Administration announced the Website had generated 800,000 
incorrect information to Americans, and obviously that will 
impact their tax status. That is nearly 10 percent of the 
people who used Healthcare.gov received incorrect data and 
incorrect information.
    And for the 50,000 people who already filed their taxes, 
the IRS just said last week, don t worry about it. This is 
outrageous considering how often the IRS has bemoaned their 
budget and inability to collect tax dollars.
    Finally, since the President's immigration announcement, we 
have learned that illegal immigrants can now potentially obtain 
tax refunds they are not entitled to, and maybe even 
potentially participate in our election process.
    So those are the questions, too, we want to ask Mr. 
Counihan today. So we view this as an important hearing. We are 
pleased to have you here and we are hopeful you will answer 
some of the questions that we have been trying to get answers 
to for now over 3 months.
    With that, I would yield to the ranking member, the 
gentleman from Pennsylvania, for an opening Statement, and then 
we will get right to Mr. Counihan s testimony.
    Mr. Cartwright. Thank you, Mr. Chairman, for holding today 
s hearing.
    I would like to welcome our witness today, Mr. Counihan. I 
thank you for appearing before our subcommittee.
    There is good news and bad news about the ACA. I know my 
colleagues are adept at sharing all the bad news about the ACA, 
but I want to highlight some of the good news, if I may.
    The 2015 open enrollment period was a success, with a 
record 11.4 million Americans selecting marketplace plans or 
automatically re-enrolling in quality affordable coverage as of 
February 15. In my home State of Pennsylvania, 471,930 people 
selected a plan or were automatically re-enrolled by the end of 
the most recent open enrollment period.
    These strong open enrollment numbers, both across the 
Country and in my home State, show that the ACA seems to be 
working and continues to benefit millions of Americans. 
Insurance companies are joining the marketplace in significant 
numbers, offering greater plan choice to consumers. There are 
over 25 percent more insurers participating in the marketplace 
in 2015 than there were in 2014. Ninety-one percent of 
consumers can now choose to purchase plans from three or more 
insurers, up from 74 percent in 2014. And consumers are able to 
pick from an average of 40 health plans for 2015 coverage.
    I also want to say the ACA appears to be helping to reduce 
premium cost increases in the individual market. In 2015, 
premiums for the benchmark, or, that is, the second lowest 
cost, Silver plan, will increase by only 2 percent, of course, 
far below the historic trend of double digit premium increases 
that we all endured throughout the last 15 years or so.
    Since ACA open enrollment started in 2013, Medicaid and the 
Children's Health Insurance Program enrollment has increased by 
10.1 million. The ACA has also reduced the number of uninsured 
people across our Country. Because of this law, we have seen 
the largest decline in the uninsured rate since the early 
1970's, and people who care about keeping hospitals open in 
your communities will want to note that. The lower the rate of 
uninsured, the healthier our hospitals will be.
    According to the CBO, the Congressional Budget Office, the 
combined effect of the ACA coverage expansions has been to 
extend coverage to 12 million previously uninsured in 2014. In 
2015, CBO estimates that 19 million uninsured Americans will be 
covered. Thanks to the ACA, millions of young adults, many of 
whom might have otherwise been uninsured, have been able to 
stay on their parents health plan, 129 million Americans with 
pre-existing conditions can no longer be denied coverage or 
charged higher premiums, and more than 100 million individuals 
no longer have an annual or life-time limit on their coverage, 
providing the kind of peace of mind that they will not go 
bankrupt if diagnosed with cancer or some other kind of serious 
illness.
    On February 20, CMS announced an additional special 
enrollment period, from March 15, 2015 through April 30, 2015, 
for taxpayers affected by the individual shared responsibility 
payment. I am pleased that CMS is taking additional steps to 
help those individuals who were unaware of the penalty for not 
having coverage.
    Now, earlier this month, House Republicans voted for the 
fifty-sixth time to repeal or weaken the ACA. But they have yet 
to offer concrete legislation that would serve as an 
alternative to the consumer protections and cost savings 
reforms that the law has already brought to millions of 
Americans.
    The evidence is clear. The ACA is improving the lives of 
Americans nationwide as a whole, including the constituents of 
all of the members of this subcommittee who are already 
receiving important benefits under the law. It is time for us 
all to stop these constant attacks and focus instead on working 
together more effectively and efficiently to implement this new 
American law.
    I thank the chairman again and look forward to this hearing 
and our witness's testimony.
    Mr. Jordan. I thank the gentleman from Pennsylvania. I 
would just point out that they are not attacks, it is facts. 
Eight hundred thousand people got notices that were inaccurate. 
People are being automatically re-enrolled in plans that they 
didn't opt into and may be different from the ones that 
currently exist. And that is the information we are trying to 
get at. It would be nice if we had some cooperation from Mr. 
Counihan and his folks.
    Without objection, the chair is authorized to declare a 
recess at any time, and we will hold open for five legislative 
days the record for any members who would like to submit a 
written Statement.
    I am pleased to welcome our witness today, Mr. Kevin 
Counihan, who is the Director of Marketplace, Chief Executive 
Officer of the Center for Consumer Information and Insurance 
Oversight, the Centers for Medicaid and Medicare Services.
    Pursuant to all rules, we swear in our witnesses, so if you 
would please stand, Mr. Counihan, raise your right hand. Do you 
solemnly swear or affirm that the testimony you are about to 
give will be the truth, the whole truth, and nothing but the 
truth, so help you, God?
    [Witness responds in the affirmative.]
    Mr. Jordan. Let the record show that the witness answered 
in the affirmative.
    With that, you are recognized for 5 minutes. We have your 
written Statement, so every member has that, Mr. Counihan, but 
you have 5 minutes now for an oral Statement, then we will get 
right to questions. So the floor is yours.

                        WITNESS STATEMENT

                   STATEMENT OF KEVIN COUNIHAN


    Mr. Counihan. Good morning, Chairman Jordan, Ranking Member 
Cartwright, and members of the committee. It is an honor to 
appear here today to answer your questions about CMSs 
continuing efforts to provide affordable, high-quality health 
care to the Americans we serve.
    I joined CMS last September as CEO of the Health Insurance 
Marketplace after 30 years of experience in the health care 
industry. I worked in senior roles at three private health 
insurance companies. I was president of a health insurance 
exchange and most recently was CEO of AccessHealthCT, the State 
of Connecticut s health insurance exchange.
    I am pleased that the Affordable Care Act is making a real 
difference in the lives of consumers. Since the open enrollment 
period began last year, November 15th through February 15th, 
about 11.4 million Americans selected a plan or were 
automatically re-enrolled in States using Healthcare.gov or 
through State Marketplaces.
    Yesterday we provided updated data on plan selections in 
States using the Federal facilitated Marketplace which shows 
that approximately 8.84 million consumers who selected a plan 
or who were automatically re-enrolled through the 
Healthcare.gov platform. The number of uninsured in the United 
States fell by an estimated 10 million since the start of open 
enrollment in 2013. The Nation's uninsured rate is now at or 
near the lowest level recorded in five decades of data.
    CMS is constantly working to increase value to consumers by 
providing more affordable choices and improving the customer 
experience. We added 25 percent more issuers participating in 
the Marketplace in 2015; provided consumers with an average of 
40 health plans to choose from, up from 30 last year. About 8 
in 10 consumers in the 37 States using Healthcare.gov received, 
on average, a $268 monthly tax credit.
    Over the last several years, CMS has been working with the 
IRS to plan for tax season and to provide outreach and 
education on the new tax filing requirements to individuals and 
tax filing preparers. About three-quarters of tax filers simply 
need to check a box to show that they had health coverage for 
all of 2014. The remaining taxpayers will need to take 
different steps, like claiming an exemption if they could not 
afford insurance, or paying a fee if they could but chose not 
to get covered.
    Those with the Marketplace coverage are receiving new forms 
in the mail from the Marketplace, Form 1095-A, used to 
reconcile their up-front financial assistance. This is the 
first time Americans will be working through this new process, 
and we are prepared for the inevitable challenges. While the 
vast majority of consumers received correct 1095-A forms, some 
received a form that contained an incorrect calculation. This 
affects less than 1 percent of all tax filers and is being 
fixed so that, beginning next week, those consumers can access 
a new tax form. We conducted a robust outreach effort to give 
consumers information needed.
    The Administration is committed to providing the 
information and tools tax filers need to understand the new 
requirements. Individuals who cannot afford coverage or who 
meet other conditions may receive an exemption from the shared 
responsibility payment.
    We recently launched a tool on Healthcare.gov to help 
consumers who did not have insurance last year determine if 
they qualified for an exemption. This tool will help consumers 
determine which exemptions they may be eligible for and how to 
apply for exemptions, whether through the Marketplace or 
through their tax return.
    CMS is also providing a special enrollment period in States 
which use the federally facilitated Marketplace for individuals 
and families who did not have health coverage in 2014 and are 
subject to the fee when they file their 2014 taxes. The special 
enrollment period for March 15th to April 30th will allow 
individuals and families to buy coverage through the 
Marketplace.
    As I mentioned, having been involved in both the State 
exchange and private exchanges prior to coming to Washington, I 
have seen how powerful the private sector companies can be in 
competing for consumers business. I have learned from my 
experiences that communication and collaboration is key. If 
anyone has suggestions on how to improve our systems and our 
programs, I would appreciate hearing from you personally, and I 
look forward to working with you.
    We are proud of what we have accomplished so far and the 
difference the high-quality, affordable health care coverage is 
making in the lives of people throughout the Country. Thank you 
for your time, and I look forward to your questions.
    [Prepared Statement of Mr. Counihan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Jordan. Thank you.
    The gentleman from North Carolina, Mr. Meadows, is 
recognized for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman.
    Thank you for your opening Statement. You are gifted with 
your words. I guess my concern, and you know that I have a 
concern, and I am going to share this with the ranking member, 
Mr. Cartwright, because even though we are on different sides 
of the aisle, we believe that this should not be political. 
Indeed, I met with you personally, told you I didn't want it to 
be political; I wanted to get the information.
    So I guess my question is why do we still not have the 
information we requested after 23 emails, seven phone calls, 
one personal meeting, countless other indirect contacts that we 
have had, two text messages? I have been reaching out for over 
70 days. And it is real simple: we haven't gotten the 
information that you have had. So you have been working through 
the information, so you have not had the re-enrollment numbers 
in order to comply, is that correct?
    Mr. Counihan. That is correct. I will wait until you are 
done.
    Mr. Meadows. No, that is the question. You are under oath. 
So you have not had the re-enrollment numbers that I have 
requested multiple times?
    Mr. Counihan. What is critical, Congressman, is that the 
information that we provide you, or anyone on this committee, 
be accurate, be verified, be validated, and make sure that it 
is correct before submitting to you.
    Mr. Meadows. So is it your testimony here today that you 
have not had those numbers until today? Or yesterday.
    Mr. Counihan. Correct. You and I spoke yesterday and I gave 
you numbers over the phone, and that is correct. We have 
numbers, but they are not verified, fully validated, fully 
vetted that I would give to you.
    Mr. Meadows. Well, why would you not give me numbers, as I 
have requested them 23 times? Why would you not give me 
numbers? Because then I made a simple request. I said just send 
me the batch information. I had to go through and dig through 
this and just ask for the batch information that you were 
giving to other insurance companies. Why did you not give me 
that?
    Mr. Counihan. Can I respond? I feel a personal 
accountability in responding to you. I think you know that; you 
and I have talked. I am committing to giving you information 
that----
    Mr. Meadows. Why do we have to have a hearing in order for 
me to get a phone call the day before to get partial, it is not 
even all the information; I only got a little bit of it. So why 
would we have to wait that long?
    Mr. Counihan. Congressman, as I said, I am very committed 
to getting the information, but it has to be accurate. It has 
to be tested.
    Mr. Meadows. All right, so let me ask you this.
    Mr. Counihan. It has to be one that stands up because, if 
it is not, that creates a different problem.
    Mr. Meadows. All right, so let me ask you a more difficult 
question, then. If indeed you were afraid to give me those 
numbers because you indeed say you didn't have them, and that 
you were verifying the numbers and that you were concerned that 
they were not accurate, did you give re-enrollment numbers to 
anybody else outside of CMS? And be careful, because you are 
under oath.
    Mr. Counihan. I understand that. What I am committing to 
you, Congressman, is that any information that I give you to a 
request----
    Mr. Meadows. That is not my question.
    Mr. Counihan [continuing]. Is verified and validated.
    Mr. Meadows. That may be a good answer to a question I 
didn't ask. Did you provide it to anybody outside of CMS?
    Mr. Counihan. I am giving you information, Congressman, 
that is verified and validated. I have enormous respect for 
you. I understand your goals and I appreciate what you are 
trying to do.
    Mr. Meadows. So yes or no?
    Mr. Counihan. I am telling you, Congressman, that no 
information I am giving to you is not going to be fully vetted 
and fully verified.
    Mr. Meadows. That is not my question. Are you going to 
answer the question? Did you give it to anybody outside of CMS?
    Mr. Counihan. I am repeating my answer, Congressman, with 
deepest respect. I am giving you information when it is 
verified and fully validated.
    Mr. Meadows. All right, well, let me finish it. I have 
information that would suggest that you gave it to other people 
out of CMS. Yes or no, is that accurate?
    Mr. Counihan. Congressman, I am not familiar with the 
information that you may have, but----
    Mr. Meadows. Did you not send re-enrollment numbers, did 
you not send re-enrollment numbers to health care providers on 
December 18th? Did you not send that to them?
    Mr. Counihan. Congressman, I have to go back and check 
correspondence from December 18th. I do not have recollection 
about that.
    Mr. Meadows. All right. Did you give re-enrollment numbers 
to the White House?
    Mr. Counihan. Congressman, I have to go back and check 
this. I am not----
    Mr. Meadows. You know what, Mr. Counihan?
    Mr. Counihan. I am not familiar with this.
    Mr. Meadows. Let me just tell you, and I will conclude with 
this Statement, I guess. Either CMS intentionally gave 
misleading information to insurers, insurance companies across 
the Country on December 18th or you lied to me and said that 
you didn't have it. Which is it? Either you intentionally 
misled them, because they got it, or you lied to me. Which is 
it?
    Mr. Counihan. Congressman, I have to check the facts of 
what you are alleging.
    Mr. Meadows. Well, you have counsel behind you. She shows 
up at every one of these meetings. Ask her to check on it while 
you are here and we would love to hear your answer.
    I yield back.
    Mr. Counihan. Congressman--OK.
    Mr. Mulvaney [presiding]. The gentleman s time is expired.
    Now recognize the gentleman from Pennsylvania for 5 
minutes, the ranking member.
    Mr. Cartwright. Thank you, Mr. Chairman.
    Well, Mr. Counihan, I want to say, at the outset, that Mr. 
Meadows and I agree on a great many things here in the U.S. 
House of Representatives, and one of them is that we want 
transparency and accountability in the Government; that is why 
we have put in to serve on this here committee, because this is 
a committee that is charged with the responsibility of 
ferreting out problems in the Government. And we want to see 
that when somebody on the committee, particularly Mr. Meadows, 
when he calls you, you call back. Has that been happening; when 
he calls you, do you call back?
    Mr. Counihan. I believe it has been happening. We had a 
conversation yesterday as a followup to a conversation that we 
have been having since December. I value Congressman Meadows 
quite a bit.
    Mr. Cartwright. And I want to also say for the record if 
Mr. Meadows is having a hard time getting ahold of you, I want 
him to call me and I will help him get ahold of you.
    Mr. Meadows. Would the gentleman yield?
    Mr. Cartwright. I certainly will.
    Mr. Meadows. I would be glad to give you a timeline. We 
will share it with you and I will let you make your own 
decision on whether he has been responsive or not. I sent him a 
text message the last time and said if he is not going to be 
willing to provide us with the numbers, there is no sense going 
through that. But, Mr. Cartwright, I trust you and I will give 
you the timeline.
    Mr. Cartwright. Thank you. Reclaiming my time.
    I think that it would make sense for Mr. Meadows and me to 
work together to make sure you are being fully transparent and 
accountable, Mr. Counihan.
    There was a comment, though, that was made about it took a 
hearing to be scheduled before you would make a phone call. I 
just want to make it clear. Were you subpoenaed to come to 
today s hearing or did you come voluntarily, of your own will, 
Mr. Counihan?
    Mr. Counihan. I came voluntarily.
    Mr. Cartwright. All right. And forgive me if I misState 
this, but it seems to me that, when we are talking about 
numbers and talking about testimony under oath, as you are, you 
understand you are under oath today, right?
    Mr. Counihan. Yes.
    Mr. Cartwright. And you have understood that very plainly 
that, when you come to our committee, you are going to be under 
oath, so we are going to expect exactitude in the numbers that 
we get from you.
    Mr. Counihan. Yes.
    Mr. Cartwright. Is that one of the concerns that has been 
driving your reticence about sharing particular numbers, that 
you want to make sure they are exact and precise when you 
testify to them under oath?
    Mr. Counihan. Yes.
    Mr. Cartwright. All right. Now, I want to visit this 
question about the erroneous tax information that was sent out, 
because that is a concern of mine as well. The agency has sent 
erroneous tax information to roughly 800,000 tax filers who 
receive coverage through the federally facilitated Marketplace 
in 2014. It is my understanding that these tax filers received 
erroneous 1095-A forms. Is that correct?
    Mr. Counihan. Correct.
    Mr. Cartwright. And these are the people that you said 
constituted less than 1 percent of the filers?
    Mr. Counihan. Correct.
    Mr. Cartwright. OK. How did it happen?
    Mr. Counihan. You know, to the best of our understanding so 
far, and we are still doing research into this, it appears that 
there was an unfavorable interaction between two pieces of 
software code, and upon identifying that we began our fix.
    Mr. Cartwright. OK. So those of us that have employer-
sponsored coverage or government coverage such as Medicare or 
Medicaid are not affected by this.
    Mr. Counihan. Correct.
    Mr. Cartwright. And would you take this moment, Mr. 
Counihan to explain to us now what the agency is doing to alert 
tax filers who received the erroneous 1095-A forms about what 
they need to do to proceed with filing their tax returns?
    Mr. Counihan. We are doing quite a bit. We take the issue 
of the disruption caused by these incorrect forms very, very 
seriously, and it wouldn't matter whether it were one tax filer 
or 820,000. We jumped on this issue very fast to uncover it. We 
have created new tools on our Website, Healthcare.gov, that 
help people both understand whether they were impacted by it, 
how to calculate the correct benchmark plan, that second lowest 
cost, Silver. We have trained our call center representatives 
to take calls from recipients so that they can get the answers 
that they need. We have made robocalls out, we have sent 
letters, we have sent emails. We have had a broad-based 
communication effort.
    Mr. Cartwright. OK. Well, Mr. Counihan, I want to express, 
before I yield my time, I am disappointed that the agency made 
this kind of mistake at such a critical time. This is an 
unforced error that provides fodder for those who want to tear 
down the ACA. But I want to remind my colleagues that it 
doesn't detract from the fact that millions of Americans now do 
have access to life-saving healthcare coverage that they did 
not previously have.
    With that, I yield back, Mr. Chairman.
    Mr. Mulvaney. I thank the gentleman.
    We now recognize the gentleman from Tennessee, Mr. 
DesJarlais.
    Mr. DesJarlais. Thank you, Mr. Chairman.
    Good morning, Mr. Counihan.
    Mr. Counihan. Morning.
    Mr. DesJarlais. It is good to have somebody here that is 
concerned about exact and precise numbers, because we have had 
a lot of trouble getting accurate numbers when it comes to the 
Affordable Healthcare Act. You gave a pretty resounding, rosy 
testimony in terms of how the healthcare law is working, but it 
doesn't seem to coincide with a lot of the people that I hear 
from, so I was hoping you could help clear up some numbers.
    You had indicated that the uninsured rate is at the lowest 
point in the recorded history of the Country, is that correct?
    Mr. Counihan. I said that the uninsured level has dropped 
significantly.
    Mr. DesJarlais. I think you followed with saying that it 
was the lowest that had been recorded, and I was wondering how 
you came to that number.
    Mr. Counihan. Just to be precise, sir, what I said was the 
uninsured rate is now at or near the lowest level recorded 
across five decades of data.
    Mr. DesJarlais. OK, so pretty good. How did you get that 
data? Where did it come from? How many people are insured in 
this Country, what do we have, 310, 330 million people?
    Mr. Counihan. About 330 million people. To be frank with 
you, sir, I need to get back to you with that.
    Mr. DesJarlais. OK. How many people were uninsured when 
this law first came into effect, when they were selling it to 
the American people?
    Mr. Counihan. Sir, I need to do the same.
    Mr. DesJarlais. Well, I mean, roughly. You don t have to be 
precise. The President was throwing out numbers, 30 million, 40 
million were uninsured.
    Mr. Counihan. You know, sir, I am not trying to be 
difficult.
    Mr. DesJarlais. Did you prepare at all for this hearing?
    Mr. Counihan. Yes.
    Mr. DesJarlais. I listened to your answers to Mr. Meadows, 
and it just astounds me that you can't remember whether or not 
you gave information to CMS or to the White House. That is your 
testimony, that you just don't remember?
    Mr. Counihan. No, it is not. What I simply want to say is 
that you have asked me a question that has to do with data. I 
respect that question. I would like to respond with a precise 
answer.
    Mr. DesJarlais. OK. If people don't sign up for the 
healthcare law, they are going to pay a tax penalty here soon, 
right?
    Mr. Counihan. Only if they do not qualify for an exemption.
    Mr. DesJarlais. So it is kind of hard to get the number of 
uninsured until we see how many people have to pay a penalty, 
because we have heard the President said 30 or 40 million 
people were uninsured in this Country; now you are saying 10 or 
11 million have insurance. And we have 330 million people, but, 
yet, is it your testimony that about 90 percent of the people 
who have signed up are getting subsidies?
    Mr. Counihan. What I would say based on our enrollment is 
roughly 87 percent of people that enroll in the Marketplace----
    Mr. DesJarlais. OK, so roughly 9 out of 10 are getting 
subsidies. And we have 330 million people. You can't tell me 
how many had insurance and how many don't have insurance, but 
you are saying we have the lowest insurance rate. So you are 
not really helping me with your exact and precise numbers. But 
what we are seeing is people paying about two to 4,000 more for 
premiums, paying much higher deductibles. And yet the President 
promised most people's premiums would drop 2500. So it is clear 
at this point we were sold a bill of goods. Do you agree with 
that?
    Mr. Counihan. With deep respect, I do not agree with that, 
and the reason I don't is because I have been doing this 
between States and now here in this job for almost 9 years, and 
I have seen the impact of people getting access to coverage 
that is more affordable for them, that----
    Mr. DesJarlais. Well, you and I are talking to different 
people, but let's move on. Let's talk about some more exact and 
precise numbers. This month, HHS announced that you will 
terminate coverage for individuals who signed up in 2014 who 
have been unable to verify their citizen status, so that is 
about 200,000 individuals, right?
    Mr. Counihan. It appears that number is going to be less 
than that.
    Mr. DesJarlais. OK. We have numbers that show up to 312,000 
individuals should not be receiving coverage, so that is not 
correct?
    Mr. Counihan. Congressman, I would appreciate the 
opportunity to come back to you with precise numbers on all 
these questions.
    Mr. DesJarlais. It sounds like you are going to have to 
come back, because you are certainly not ready today. First of 
all, how do these people sign up, what data do they need? Do 
they need a driver's license, a Social Security card? How can 
they sign up for healthcare if they are getting it illegally?
    Mr. Counihan. So an individual attests on their application 
to specific amounts of parts of information. We check that 
information against electronic data sources to verify its 
validity. There can be situations where that data is going to 
match; there will be situations where that data does not match. 
When the data does not match the verified sources, the trusted 
sources, it is up to that individual to provide the evidence 
that supports that they are legally eligible for coverage.
    Mr. DesJarlais. So how do we get this money back? And let 
me ask a second question. With the President s executive order, 
with four to five million new people gaining access to Social 
Security cards and driver's licenses, probably the very 
information that it takes to get this healthcare coverage, how 
are you going to prevent that and how are you going to get that 
money back?
    Mr. Counihan. Congressman, I think the point is that we 
take self attestations, we verify them against proper data 
sources to make sure that they are accurate. If they are not 
verified, the applicant is required to provide proof, that in 
fact, it is true. If the proof is provided, they may maintain 
their coverage and the appropriate subsidies and such; if the 
proof is not provided----
    Mr. DesJarlais. Bottom line is this law wasn't ready and it 
is never going to be ready.
    I yield back.
    Mr. Mulvaney. I thank the gentleman.
    We now recognize the ranking member, the gentleman from 
Maryland, Mr. Cummings, for 5 minutes.
    Mr. Cummings. Thank you very much.
    Mr. Counihan, we are very pleased to have you here. Despite 
strong evidence to the contrary, Republicans continue to claim 
that the Affordable Care Act is causing an increase in 
healthcare costs. However, multiple reports show that the 
growth of healthcare spending in the United States, in fact, 
slowing to historically low levels. Thanks to the Affordable 
Care Act, we have seen the slowest growth in healthcare prices 
in nearly 50 years, and Congressional Budget Office estimates 
show that the ACA will reduce the deficit by about $100 billion 
over its first 10 years and a total of $1.7 trillion over the 
first two decades.
    When we look at the benefits of it, of course, there are a 
lot of people who are staying well because they now have access 
to insurance and, therefore, medical care. There are people who 
have preexisting conditions that are now able to get treatment. 
So there are a lot of benefits to this very important law.
    In December 2014, Mr. Counihan, the Centers for Medicare 
and Medicaid Services issued its national health expenditures 
report. Are you familiar with that report, sir?
    Mr. Counihan. I have heard of it. I am not familiar with 
the details of it.
    Mr. Cummings. Well, maybe some of this will be familiar to 
you. The report found that national health spending grew by 
just 3.6 percent in 2013, the lowest rate of growth since 1960. 
This is down from 4.1 percent growth in 2012. In your opinion, 
what factors are driving these low rates? The low rate of 
growth, that is.
    Mr. Counihan. Congressman, I would have to understand the 
report better before I responded.
    Mr. Cummings. OK. Are the Affordable Care Act's payment and 
delivery reforms, do you think that has been part of the 
explanation? I know you have to get back to me, but do you 
think that would be a part of it?
    Mr. Counihan. I do.
    Mr. Cummings. I want to go back to some questions that were 
asked of you earlier about certain data that you were 
questioned about whether you had released that data to the 
White House and then I think you were also asked about 
insurance companies. It sounds like you wanted to make sure, as 
far as the committee is concerned, that the data was properly 
vetted. And I agree with the ranking member and chairman of the 
subcommittee that we do have to get accurate information.
    I guess, as I listened to you, I just have one question. If 
the information was released to others, is it done with a 
caveat? How does that work? And I know you said you need to get 
back to us, but I am just trying to figure out. I can 
understand definitely you making sure you deliver very accurate 
and up-to-date information to this committee, because, man, if 
you don't, next thing you know, you have big problems. But the 
question becomes are there circumstances where information is 
released to others? Is there a caveat if that happens? Or does 
it happen?
    Mr. Counihan. Sir, I have to look at the information that 
was provided that Congressman Meadows referred to this December 
18th. I am not familiar with that report.
    Mr. Cummings. OK. So I am talking about just general 
information. In your experience, do you ever release 
information with a caveat, that this is not accurate, it still 
has to be vetted? I think that is a pretty reasonable question.
    Mr. Counihan. It is a reasonable question, and the answer 
to that question is that, depending on the circumstance 
involved, there may be internal information that is shared, but 
at all times, when we would ever release information to you, to 
Congressman Meadows, to this committee, we would not do 
anything without having that information checked, triple 
checked, fully, fully verified.
    Mr. Cummings. So, again, do you ever release raw data 
without vetting to anybody else? Does that happen?
    Mr. Counihan. We have released on a weekly basis a snapshot 
report of how we do in our open enrollment period.
    Mr. Cummings. OK.
    Mr. Counihan. I assume this committee has received that.
    Mr. Cummings. OK. And so that data is not vetted, is that 
right?
    Mr. Counihan. No, that data is vetted.
    Mr. Cummings. All right. I see my time has expired.
    Mr. Mulvaney. Thank the gentleman.
    We need to take care of a housekeeping matter here. We have 
a new member to the full committee, Ms. Lujan Grisham from New 
Mexico. I ask, even though she is not part of the subcommittee, 
that she be permitted to participate today fully in this 
subcommittee. Without objection.
    At this point, recognize for 5 minutes the gentleman from 
Georgia, Mr. Hice.
    Mr. Hice. Thank you, Mr. Chairman.
    Mr. Counihan, does your office obtain any supplemental 
funding from other areas within HHS or CMS?
    Mr. Counihan. Sir, I am not sure of the answer to that 
question. I need to respond back to you on that.
    Mr. Hice. So you are not aware if there are any 
supplemental funds at all. Have you ever made a request for 
supplemental funding?
    Mr. Counihan. Sir, I have to get back to you with answers 
around supplemental funds.
    Mr. Hice. Do you know if you have ever made a request for 
supplemental funding?
    Mr. Counihan. Sir, it is not coming to mind that I have 
made a request for supplemental funds, but I don't want to say 
anything that may not be true, so I please need to get back to 
you.
    Mr. Hice. Sir, we are providing you with information that 
HHS provided us regarding transfers that were made last year, 
some $109 million that was transferred into program management 
to ensure that the CMS had operations of the Marketplace to 
support what they are doing. Are you aware that this money was 
transferred to help Marketplace operations?
    Mr. Counihan. Sir, I arrived in September of last year. I 
don't know the date or timing of when those requests or 
allocations may have been made. This was before my time.
    Mr. Hice. Sir, I understand that, but you are the CEO.
    Mr. Counihan. My suspicion is it was before my time.
    Mr. Hice. OK. This is your area of responsibility. So you 
are not aware at all of where $109 million supplemental funding 
came from?
    Mr. Counihan. I am not aware of that specific supplemental 
funding you have just referred to.
    Mr. Hice. Well, let me ask you this way. Do you believe 
that it is appropriate for Healthcare.gov to receive money from 
the CDC?
    Mr. Counihan. Sir, I need to----
    Mr. Hice. Well, it is there in front of you, provided by 
your own staff to us that that took place. Do you believe it is 
appropriate for money to come from NIH for Healthcare.gov?
    Mr. Counihan. The issue of supplemental funds, Congressman, 
is unfamiliar to me, and I would need to respond back to you 
upon----
    Mr. Hice. Well, sir, would you believe that it should not 
be a strange subject to you, seeing that this is the area that 
you are responsible for?
    Mr. Counihan. I accept full responsibility for my offices 
and for the exchange. I am just unfamiliar with this issue of 
supplemental funding that you are referring to.
    Mr. Hice. All right, sir. Are you familiar with Form 8962?
    Mr. Counihan. With that tax form?
    Mr. Hice. With the tax form, yes, sir.
    Mr. Counihan. Yes, I am.
    Mr. Hice. OK. CBS News referred to this as a mind-boggling 
form. Were you in any way responsible or helpful, if we can put 
it that way, to the IRS for this form and the information?
    Mr. Counihan. The creation of IRS forms is not in my 
bailiwick.
    Mr. Hice. But, according to your testimony, you work 
closely with the IRS to provide information they needed to 
develop some of these forms, is that correct?
    Mr. Counihan. Our offices are collaborative with a number 
of Federal agencies. We were not, to my knowledge, involved in 
the design of Form 8962.
    Mr. Hice. Well, sir, you are familiar with the form, 
though.
    Mr. Counihan. Yes, I am.
    Mr. Hice. The premium tax credit form.
    Mr. Counihan. Yes, I am.
    Mr. Hice. Do you have a copy of it there?
    Mr. Counihan. Yes, I do.
    Mr. Hice. OK. Just a simple observation of this thing. This 
is two pages, over 90 questions just on one page alone, looking 
at this, sir. Let me ask you. Just looking at that form, is 
this something that you believe, as a CEO here, that you could 
fill out yourself, without some assistance?
    Mr. Counihan. This form, Congressman, is not a form that my 
office created; it is an IRS form. I know that there are 
directions for the form. We provide tools on Healthcare.gov to 
also assist in the completion and the use of the benchmark plan 
information that is used to complete that form. The 1095-A form 
provides the information needed to complete that.
    Mr. Hice. So you are saying you have nothing to do with 
this form. It certainly is not a simple form for an American to 
fill out, but it is necessary if they had any break during the 
year.
    Mr. Counihan. As I said, Congressman, not involved in 
creating IRS or Treasury forms.
    Mr. Hice. OK. The Associated Press said that consumer 
information has been shared with other companies; the people 
put in information with Healthcare.gov, that information has 
been shared with other companies. Are you aware of that 
information being shared?
    Mr. Counihan. We have shared no names, addresses, Social 
Security numbers, any personal information with any third 
parties.
    Mr. Hice. You have not.
    Mr. Counihan. We have not.
    Mr. Hice. OK. Well, the report is otherwise. Is it 
appropriate for information to be shared?
    Mr. Counihan. I will confirm. We have not shared any names, 
addresses, Social Security numbers, or any personal 
information. We will not do so, we have not done so, and we 
will not do so.
    Mr. Hice. I yield. Thank you.
    Mr. Mulvaney. The gentleman s time has expired.
    We now recognize the gentlewoman from New Mexico, Ms. Lujan 
Grisham, for 5 minutes.
    Ms. Lujan Grisham. Thank you, Mr. Chairman.
    In New Mexico, where we have some of the most challenging 
uninsured and access issues in the Country, the number of 
individuals uninsured has dropped by about 25 percent, and it 
is one of the largest drops of any State in the Country, and it 
is making a powerful difference in making sure that the health 
status of a poorer State is on its way to improving, and we 
want to continue to build on that progress.
    Notwithstanding, it concerns me greatly, and I know that 
you are hearing that from all of my colleagues today, that CMS 
sent approximately 800,000 inaccurate tax forms to individuals 
who signed up for coverage. I also understand that this is a 
very large, complicated program, and I understand also, and you 
have reStated it today, that the majority of the tax forms that 
were sent out inaccurate. But we want to make sure that we are 
also highlighting that tons of information has also gotten out 
that has been incredibly accurate and has provided the right 
avenue for folks to sign up for coverage and get the subsidies 
and related issues that caused them to not only be covered, but 
stay covered.
    We have had several hearings, and I am going to kind of 
segue now into the focus of my question, on HHS's efforts and 
CMSs efforts to make sure that we are addressing the security 
of this information and the processes are sound, and that we 
have done a million--I hope that that is not an exaggeration, 
probably is--but that we are really sufficiently addressing the 
cybersecurity issues significantly.
    So it is clear to me that that is happening. What is not 
clear to me, given this mistake, is CMS using, specifically, 
the same continuous monitoring that HHS is using to test the 
Website, and do you feel that CMS has those tests and those 
data points to detect your vulnerabilities?
    Mr. Counihan. Congresswoman, please, just to make sure that 
I understand, this is an issue related to security and perhaps 
cybersecurity risks?
    Ms. Lujan Grisham. Be broad. I use that as an example. 
Including the cybersecurity, including privacy, including 
protection, and making sure that it is fully integrated, and 
making sure that States integrate one-stop shopping and make 
sure that their data points are all integrated.
    We know that HHS has done incredible testing. Is CMS using 
those same mechanisms to test the accuracy of your data on your 
Websites?
    Mr. Counihan. I can speak to the Website. I can speak to 
the area that I oversee. What I would tell you is the 
following. One is that the security of our Website is among our 
absolute highest priorities. No. 2 is that we use the same type 
of tools and protections used in the most secure industries in 
the private sector. No. 3 is that we conduct continuous 
monitoring using multi-layer professional security team to 
mitigate any potential types of risks. And we are fully 
committed to maintaining the security.
    Ms. Lujan Grisham. Given this mistake, can you point to 
specifically the safeguards in place, notwithstanding the 
mistake, that should have caught this mistake? Because my next 
question, as you answer, maybe you can dp both at the same 
time, is what are you doing right now to correct this problem 
so that we don't have future mistakes of this nature in this 
regard or any other regard? And I recognize that no system is 
full-proof, but what I do expect is that there is this 
continuous monitoring, you identify the problem, and that you 
can assure this committee that it is addressed.
    Mr. Counihan. Yes. I appreciate the question. No. 1 is I 
think I outlined the issue with respect to the interaction 
between these two pieces of software code. We are still digging 
deeper to understand the root cause, but we believe we have a 
fairly good sense of how it is going.
    I think what is critical, to your point, Congresswoman, is 
that we have a structure and a process in place that once an 
issue is identified, that we can understand it, remediate it, 
fix it, develop a customer support focus to aid customers, and 
then have a broad outreach program to show customers how to 
react.
    Ms. Lujan Grisham. And I appreciate your answer very much, 
and I realize that I am interrupting you. I only have 20 
seconds left. I am going to ask that you be much more specific, 
and I am going to ask that you do that in writing and provide 
those specifics that you have been asked by my colleagues to 
get data back to this committee so it is clear to us what that 
means in very concrete, substantive context so that we can 
support you to assure that you have the tools and resources to 
prevent these mistakes and to mitigate.
    With that, Mr. Chairman, I yield back my time.
    Mr. Mulvaney. I thank the gentlelady and I will now 
recognize the gentleman from North Carolina, Mr. Walker, for 
his 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman.
    Mr. Counihan, thank you for coming out today. This hearing 
is morphing into more or less about enrollment numbers than it 
is about transparency. You talked about the pre-September, 
maybe not responsible for all the things that happened there, 
so let's talk about post-September, if we could, for just a few 
minutes.
    In fact, this week, H&R Block announced that 52 percent who 
enrolled in insurance via the State or the Federal Marketplaces 
are paying back a portion of their advanced premium tax credit. 
We have the world's largest tax preparer that for more than 
half of the enrollees, ObamaCare is costing more than they were 
told at first.
    My question is how do you account for this mishap?
    Mr. Counihan. Congressman, our enrollment process relies on 
eligibility and income information provided by an applicant. 
That eligibility information and income information is then 
validated with the appropriate sources to make sure that it is 
true. As we all know, income can sometimes fluctuate.
    Mr. Walker. So this was the enrollee's fault; had nothing 
to do with your department?
    Mr. Counihan. I am saying that income can fluctuate. If the 
enrollment information and eligibility information is not 
updated, sometimes an individual may be getting more tax 
credits or less tax credits than they would warrant.
    Mr. Walker. Do you know what the average tax credit is, 
return?
    Mr. Counihan. It is $268 a month.
    Mr. Walker. And H&R Block reported the average payback is 
$530. Would you say that is significant?
    Mr. Counihan. Again, sir, I think that having to pay back 
anything is significant. The $268 translates to roughly $3200 a 
year. Again, I think that with 87 percent of our enrollment 
receiving tax credits, it has made a profound difference in 
providing and accessing affordable care.
    Mr. Walker. Thank you. We have hit already eight to ten 
different specific areas. Let me talk about a number that you 
might be able to provide. On a scale of one to ten, how would 
you rate the department's handling of these issues that we are 
talking about today?
    Mr. Counihan. I feel extremely proud and comfortable 
representing the way that we have handled our issues.
    Mr. Walker. Eight? Nine?
    Mr. Counihan. And the reason why is because we have created 
a process that identifies a problem, looks at root cause, 
fixes, provides customer support and outreach. And I say that 
because it is a repeatable process and it is the appropriate 
way to respond.
    Mr. Walker. Sure. You spoke earlier about you are unable to 
give numbers out until they are fully vetted. I believe you 
used the word verifying.
    Mr. Counihan. Yes.
    Mr. Walker. Can you speak for a few seconds what is your 
vetting and verifying process?
    Mr. Counihan. So we have a data analytics team that is 
dedicated to reviewing our data. They are in charge and 
accountable for ensuring that it is right, that it is tested, 
that it is appropriately validated and vetted, and they are 
accountable for that.
    Mr. Walker. Once it is vetted, do they give those numbers 
to you, Mr. Counihan?
    Mr. Counihan. When the numbers are appropriately tested, 
verified, and validated, yes.
    Mr. Walker. Who provides those numbers to you?
    Mr. Counihan. The data analytics department.
    Mr. Walker. And those numbers, since September, have you 
given those out to more than five or less than five?
    Mr. Counihan. I am sorry, when you say five?
    Mr. Walker. As far as the numbers, as far as these numbers 
that have been released, people that you have shared these 
numbers with even though they are not complete, is it more than 
five groups, agencies, individuals, or less than five?
    Mr. Counihan. Well, as I said, it is critical for us that 
we don't share any numbers that haven't gone through this 
process. And what I have tried to communicate this morning is 
the urgency and the priority we place on making sure that the 
numbers that we give are accurate.
    Mr. Walker. So up until today there have been no numbers 
shared pre-vetting or post-vetting until now.
    Mr. Counihan. The example that I would use, Congressman, is 
the weekly snapshots that we provide that are an update of our 
open enrollment progress is a good example of how that 
information gets verified and validated before it is released.
    Mr. Walker. Thank you, Mr. Chairman. I yield back.
    Mr. Mulvaney. Thank the gentleman.
    Now recognize the gentleman from California, Mr. 
DeSaulnier, for 5 minutes.
    Mr. DeSaulnier. Thank you, Mr. Chairman. Great job on the 
pronunciation.
    Mr. Mulvaney. Did I get that right?
    Mr. DeSaulnier. Yes.
    Well, thank you for being here today.
    And I must admit, Mr. Chairman, as a freshman from 
California, it is taking some use to assimilating some of the 
comments from other parts of the Country. While we have had 
challenges in California, generally, it has been positive. In 
my previous life, I chaired the budget subcommittee for Health 
and Human Services and worked closely with members of our 
exchange, both Republicans and Democrats.
    So, having said that, as a supporter of the ACA and 
believing that we have to recognize the size of the challenge 
that you are trying to implement, but also being consistent 
with all concerns by members on both sides, as a supporter, I 
want as few criticisms as possible within the range of this is 
huge domestic policy that is very complicated.
    So sort of to the last comments, within that context, 
without quantifying it, and in the spirit of I would really 
like to not see these kinds of things happen, and not have to 
defend them because I don't think they are acceptable, where do 
you feel as if you have done enough corrective actions on the 
macro level so that we don't see these kinds of things in the 
media and give the critics the opportunity to take on the whole 
program altogether?
    Mr. Counihan. The process of implementing the law requires 
significant amount of testing, and an example of that type of 
testing, whether it is stress testing, load testing, 
performance testing and such, was the relaunching of our 
Website this year.
    I think that it is probably well known that we had a few 
bumps or glitches in the first year of its rollout. In its 
second year we went out of our way to be very conscious about 
improving the customer experience. We have reduced the number 
of enrollment screens from 76 down to 16. We put new decision 
support tools in place that allowed people to select plan 
either by issuer, by deductible, by even being conscious of a 
healthcare condition, by premium.
    We have a whole section, the learning section of our 
Website, that provides additional decision support tools to 
help people pick a plan. We offer 25 percent more issuers than 
we did the year before, which is providing more competition. We 
believe in the Marketplace; we believe in competition. We have 
seen, in fact, that it has driven the adding of more value to 
consumers that came back and shopped and compare.
    So all of which you have described is required as part of a 
testing process. Is testing always perfect? No. Can there be 
these instances which occurred here, where you have these two 
pieces of code that interact unfavorably? Yes. I think the 
point from our perspective is what do you do about it. And, 
from our perspective, we have put in a repeatable process of 
identification, remediation, tools, and communication.
    Mr. DeSaulnier. I believe in cost-benefits when they are 
done right, so you have the cost-benefit sort on the political 
side and the fiduciary side. We have talked a lot about the 
costs in this context. The benefits I want to talk about for a 
minute.
    So, according to the CBO, the ACA reduced the number of 
uninsured Americans by 12 million in 2014 and would bring down 
the uninsured rate by 19 million in 2015. CBO has also found 
that between 2016 and 2025 the ACA would reduce the number of 
uninsured by between 24 to 27 million Americans. Can you 
explain the impact reductions the uninsured rate have on 
uncompensated care costs and the price of premiums?
    Mr. Counihan. To the States that I have worked in in 
particular, it has had significant results in impacting and 
lowering those costs.
    Mr. DeSaulnier. Thanks. If you could give me, if you have 
any for the future, both on the testing and more specific, I 
know it is on a broad range of numbers that you could give me 
after the hearing at some point, that would be helpful.
    Since the ACA open enrollment started in 2013, an 
additional 10.1 million Americans have been newly enrolled in 
Medicaid and the Children's Health Insurance Program, CHIP. To 
date, 22 States have decided not to expand Medicaid to their 
residents. The question is if all 50 States expanded Medicaid, 
do you have an estimate of approximately how many more low-
income Americans would gain access to affordable healthcare?
    Mr. Counihan. Congressman, I don't have a significant 
estimate that I would be confident enough sharing. I do know 
that, again, based on my experience, it would have a dramatic 
impact.
    Mr. DeSaulnier. Appreciate it.
    I yield back the remainder of my time, Mr. Chairman.
    Mr. Mulvaney. Thank the gentleman.
    Now recognize the gentleman from Georgia, Mr. Carter, for 5 
minutes.
    Mr. Carter. Thank you, Mr. Chairman.
    Mr. Counihan, thank you for being here. You testified 
earlier that you came here voluntarily. How long have you known 
that you were going to be coming here?
    Mr. Counihan. I think a couple of weeks, but I am not 
exactly sure.
    Mr. Carter. Couple of weeks? Well, for someone who knew for 
a couple weeks they were going to be coming here, I hear a lot 
of answers of I don't know, I will have to get back to you. So 
I am not sure about the preparation for it, but I do appreciate 
you being here.
    I want to ask you, 800,000, 800,000 incorrect forms. Is 
that acceptable?
    Mr. Counihan. Congressman, having one incorrect form is not 
acceptable.
    Mr. Carter. Well, there is a big difference between having 
one and having over 800,000.
    Mr. Counihan. I understand that. But I think the point is 
what do you do about it. And what I tried to communicate is the 
process put in place to identify, remediate, communicate, and 
move on.
    Mr. Carter. OK. Well, what have you done? First of all, 
let's back up. What happened? What was the typical error?
    Mr. Counihan. As I mentioned earlier, the best of our 
understanding right now is there were two pieces of software 
code that interacted in what is called unfavorably, so it ended 
up replacing the 2014 benchmark price and putting in the 2015 
benchmark price on those forms for the 820,000. It didn't 
happen, obviously, for all of them, and it was a minority of 
the forms, but that is our best understanding.
    Mr. Carter. OK. And when are you going to get it corrected? 
My daddy used to tell me, he used to say, son, that is why they 
put erasers on pencils. Well, you know, I hope you all have 
invested in an eraser factory because you are going to need a 
bunch, a whole bunch. When are you going to get them corrected? 
I don't know about you, but April 15th I get knots in my 
stomach. Man, I am trying to get all this stuff together for 
the taxes and my wife, and it is not a good time.
    Mr. Counihan. Sir, I can relate to that; I have the same 
issue with my wife. The forms will be going out next week.
    Mr. Carter. So you have it corrected?
    Mr. Counihan. The corrected forms are going out beginning 
next week.
    Mr. Carter. Well, thank you.
    I want to shift gears real quick. King vs. Burwell. You are 
aware of that.
    Mr. Counihan. I am.
    Mr. Carter. You know that that is coming up, and I think we 
all have our own opinions on what the Supreme Court will rule. 
I know I think it is pretty clear what they should rule. I 
think it is pretty obvious that those subsidies were intended 
for State-run exchanges and not for federally run exchanges; 
and it is important in my State, in the State of Georgia, 
because we have a federally run exchange. If those subsidies go 
away, what is your plan? Have you got a backup plan?
    Mr. Counihan. Secretary Burwell has spoken to this issue 
consistently. I don't have anything more to say. The secretary 
has spoken for us.
    Mr. Carter. So you haven t had any input into what you 
might be able to offer as a backup plan?
    Mr. Counihan. As I said, the secretary has been very clear 
about our position on this issue and that is perfectly fine 
with me. I don't have anything more to add to what the 
secretary said.
    Mr. Carter. Do you mind repeating to me what the secretary 
has said?
    Mr. Counihan. She believes that we are on the right side of 
the issue and that we will prevail.
    Mr. Carter. OK, so we take the attitude that we are going 
to win, so we don't need a backup plan.
    Mr. Counihan. As I said, the secretary has been very 
specific on it and I don't have anything more that I could 
contribute to her.
    Mr. Carter. Have you spoken to the White House about it at 
all?
    Mr. Counihan. I have not spoken to the White House, but the 
Secretary has spoken on the issue and I don't have any more to 
add.
    Mr. Carter. Goodness, gracious. I know that gives the 
American people a lot of relief to know that. You know, we all 
have backup plans. Nevertheless, if that is the case, I 
certainly understand.
    I want to get back to a question that was asked earlier 
about the sharing of information. Now, it has been reported, 
between reported by a very reputable source, the Associated 
Press, that information from Healthcare.gov has been shared, 
shared to private companies. You are telling me that is not 
true?
    Mr. Counihan. I am telling you definitively, sir, that that 
is not true. We have not shared any personal information. We 
have not shared anything that includes names, addresses, Social 
Security numbers, any personal information.
    Mr. Carter. OK, you haven t shared it, but do you know if 
any has been obtained? Do you know if any has been leaked?
    Mr. Counihan. We have not shared any information, sir, any 
personal information.
    Mr. Carter. OK. Mr. Counihan, again, I thank you for being 
here. I wish you had been better prepared, but it is what it 
is. Thank you.
    Thank you, Mr. Chairman. I yield back my time.
    Mr. Mulvaney. I thank the gentleman and I think I am up, so 
I will recognize myself for 5 minutes.
    Mr. Counihan, it is nice to meet you. I am a new member of 
the committee, so I haven t had a chance to talk with you 
before.
    Mr. Counihan. Nice to meet you.
    Mr. Mulvaney. Mick Mulvaney from South Carolina. And what I 
want to spend most of my time on is just following up on some 
of the things you have said to some of my colleagues on both 
sides, starting with Mr. Meadows from North Carolina. He asked 
you why you had not been able to provide the breakout data that 
he had sought on the enrollment numbers, and your answer was 
that you wanted to make sure the numbers were vetted and 
verified. I think Mr. Cummings actually asked you similar 
questions; you said you wanted to make sure the numbers were 
checked and double-checked and triple-checked. So let me ask 
you a couple questions about that.
    Is that the same standard that you use, sir, before you 
release information to the public?
    Mr. Counihan. Yes.
    Mr. Mulvaney. Is it the same standard that you use before 
you release information to the media?
    Mr. Counihan. Yes.
    Mr. Mulvaney. All right. So the information that came out a 
couple weeks ago that said that somebody had miscounted folks 
who had enrolled in dental coverage, did that come out of your 
office?
    Mr. Counihan. As I recall that issue, that was an issue 
related to enrollment of last year where stand-alone dental 
membership was included with healthcare.
    Mr. Mulvaney. Correct. And did that data come from your 
office?
    Mr. Counihan. Yes, it did.
    Mr. Mulvaney. Had that been vetted, verified, checked, 
double-checked, and triple-checked before it was released to 
the press?
    Mr. Counihan. Our commitment in communicating data----
    Mr. Mulvaney. Hasn't changed. OK, I got you.
    Mr. Counihan [continuing]. Is to make sure that it is 
verified.
    Mr. Mulvaney. Fair enough. And it wasn't in that particular 
circumstance, was it? It was wrong.
    Mr. Counihan. Mr. Chairman----
    Mr. Mulvaney. There is no shame in admitting you were 
wrong, Mr. Counihan. I have been wrong. I mean, it is only 11 
and I have been wrong three or four times today. The data that 
came out on the enrollment data was wrong, wasn t it?
    Mr. Counihan. Sir, what I would like to communicate to you 
and to the committee is not only our commitment to verification 
of----
    Mr. Mulvaney. I get it. That is fine. I promise not to beat 
up on you if you promise not to filibuster the time.
    Mr. Counihan. But we have put in new safeguards to avoid 
that type of problem.
    Mr. Mulvaney. I know a lot of people who would--listen, I 
work with politicians. I have a lot of people who admit they 
are wrong sometimes. Don't worry about it.
    Let me do ask you this. The process. How long does it take 
to answer Mr. Meadows question?
    Mr. Counihan. Well, Mr. Meadows had several questions.
    Mr. Mulvaney. OK, let me do it this way. If I ask you a 
question, listen, Mr. Counihan, can you tell me how many people 
were auto-enrolled in a different program last year, how long 
should it take you to answer that question?
    Mr. Counihan. It is a seemingly simple question; it is a 
very complex question.
    Mr. Mulvaney. Again, I recognize and I simply ask you how 
long should it take you to be able to get--if the White House 
called you and asked you for that, how long would it take you 
to get that number to them on a vetted, verified, checked, 
triple-checked basis?
    Mr. Counihan. I am unsure.
    Mr. Mulvaney. OK. Let's go a different way at this. How 
many people were unenrolled or uncovered by health insurance 
before the Affordable Care Act came under law?
    Mr. Counihan. That is one of the issues one of your 
colleagues asked that I need to followup on.
    Mr. Mulvaney. Yes. The President said it was roughly 30 
million people. Was he roughly correct? He said that, I think, 
in 2009, in a joint session of Congress.
    Mr. Counihan. I suspect he is.
    Mr. Mulvaney. OK, so roughly 30 million people were 
uinsured at the outset of the Affordable Care Act, before the 
Affordable Care Act became law. Fair enough.
    How many people in the Country are uninsured today?
    Mr. Counihan. Sir, that also came up from one of your 
colleagues. It is a good question that I am coming back to you 
with an answer.
    Mr. Mulvaney. OK. Can you give me an educated estimate 
within, say, a million people?
    Mr. Counihan. Sir, I need to get back to you with a more 
precise response.
    Mr. Mulvaney. Can you give me an estimate within 5 million 
people?
    Mr. Counihan. I want to get back to you with a precise 
response.
    Mr. Mulvaney. How about 10?
    Mr. Counihan. I want to get back to you with a precise 
response.
    Mr. Mulvaney. You don't have any idea how many people are 
uninsured in this Nation?
    Mr. Counihan. Sir, I have learned, with information, it is 
important to be precise.
    Mr. Mulvaney. I get you. Let me ask this. You had a 
question earlier from, I believe, Mr. Hice, regarding 
supplemental funds that were available to your organization.
    Mr. Counihan. Right.
    Mr. Mulvaney. Who knows whether or not that is a true 
Statement, whether or not you received supplemental funds? You 
said you don't. You said you weren't familiar with it, is that 
correct?
    Mr. Counihan. That is correct.
    Mr. Mulvaney. So who in your office would know that answer?
    Mr. Counihan. I need to explore that.
    Mr. Mulvaney. Are you aware, Mr. Counihan, that if you were 
the CEO of a publicly traded corporation that was subject to 
the Sarbanes-Oxley requirements that many of the answers that 
you are giving today could get you throw in jail?
    Mr. Counihan. Sir, I am unfamiliar with the Sarbanes-Oxley.
    Mr. Mulvaney. Have you told anybody in your office not to 
provide you with information?
    Mr. Counihan. I have not.
    Mr. Mulvaney. OK. Has anybody in the White House told you 
not to seek information regarding any of the information this 
committee has sought?
    Mr. Counihan. No.
    Mr. Mulvaney. OK. Do you feel like you have faithfully 
undertaken to collect the information this committee is seeking 
from you?
    Mr. Counihan. I believe I have a commitment and it is my 
responsibility to provide that information. I also believe----
    Mr. Mulvaney. Actually, that may be the most stunning 
answer you have given, Mr. Counihan, because that was an easy 
yes. I asked you if you thought you had faithfully undertaken 
to give us the information, and you should have said yes, and 
you didn't.
    My time, however, has expired, so I am going to recognize 
now the chairman of the committee for 5 minutes, Mr. Jordan.
    Mr. Jordan. I thank the gentleman.
    Mr. Counihan, we are having a little debate here in 
Congress this week over what I believe is an unconstitutional 
action the President took last November with 5 million folks 
who are in the Country illegally. Will any of the individuals 
affected by the President's executive action, which I think was 
unconstitutional--and you don't have to take my word for it, 
lots of legal scholars on both sides of the aisle think was 
unconstitutional, and a Federal judge ruled just last week that 
it was unlawful--will any of those individuals affected by the 
President's order on immigration be eligible for advanced 
premium tax credits or subsidies to purchase health insurance?
    Mr. Counihan. What I know, Mr. Chairman, is that in order 
to be eligible, one has to be either a citizen of the United 
States or lawfully present.
    Mr. Jordan. So----
    Mr. Counihan. As a result, sir, the answer to your question 
is no.
    Mr. Jordan. Can you guarantee that the folks who have 
enrolled through the Marketplace, can you guarantee none of 
them are illegal aliens, people impacted by the President's 
executive action?
    Mr. Counihan. As I mentioned before, we have a specific 
process for verifying any self attestations for enrollment. If 
someone says that they have a certain type of eligibility 
information, that gets validated against data sources to see if 
it is true, and if they can't provide that, we require that 
they provide specific documentation to prove their eligibility. 
And that is binary; they either can or they can't.
    Mr. Jordan. To date, do you know if any non-citizens have 
actually enrolled through Healthcare.gov and are receiving 
benefits under the Affordable Care Act?
    Mr. Counihan. We have had enrollees that have been unable 
to provide the documentation necessary to prove their 
eligibility, and they have been terminated.
    Mr. Jordan. OK. Two weeks ago, in this committee room, a 
colleague of ours, Mr. Mulvaney, in fact, the gentleman 
chairing the committee, asked the head of the IRS if illegal 
non-citizens could in fact go back and receive tax benefits 
through the Earned Income Tax Credit, and the answer was, yes, 
that can happen. We also asked Mr. Koskinen, the head of the 
IRS, if in fact he had been consulted by the White House before 
the President took his unconstitutional executive actions last 
November. He indicated that the White House did not talk to 
them.
    Has the White House talked to you, the CEO of the 
Marketplace for Healthcare.gov and for the Affordable Care Act? 
Did the White House consult you before making their decision 
last November?
    Mr. Counihan. No.
    Mr. Jordan. Not at all?
    Mr. Counihan. No.
    Mr. Jordan. Have you been in consultation with them since 
the decision has taken place to understand it better, or any 
type of consultation since the decision was made?
    Mr. Counihan. No.
    Mr. Jordan. OK.
    With that, Mr. Chairman, I would like to yield the 
remainder of my time to the gentleman from North Carolina.
    Mr. Meadows. I thank the gentleman from Ohio.
    I want to followup on Mr. Mulvaney's question, because you 
say that you vet all the numbers that you give out. So when you 
put out a press release that said 800,000 people had gotten the 
wrong information----
    Mr. Counihan. Eight hundred twenty.
    Mr. Meadows. Well, you put out 800. But when you said that 
it was 800,000 and that 50,000 of those had already filed, how 
did you know that?
    Mr. Counihan. Congressman, I am not sure of the----
    Mr. Meadows. You didn't know that.
    Mr. Counihan. I am not sure of the details of how we----
    Mr. Meadows. Well, let me tell you how you didn't know 
that. Because you are not with the IRS. So how was that vetted? 
I mean, you just told Mr. Mulvaney you vet every number that 
goes out, you only put it out, and yet you couldn't have vetted 
that number because you didn't have access to the IRS 
information, do you?
    Mr. Counihan. What I meant to say, Congressman, is that we 
have a data analytics department in my operation, our 
operation, that is responsible for exactly vetting data that 
comes out of our office.
    Mr. Meadows. So did that information come out of your 
office? It was your press release.
    Mr. Counihan. I----
    Mr. Meadows. So you only vet the information that you don't 
want to give to Congress, is that correct?
    Mr. Counihan. No, that is not correct.
    Mr. Meadows. So you vet all information----
    Mr. Counihan. We vet----
    Mr. Meadows [continuing]. Except when it is a press release 
that may look negative toward you. Because you didn't vet that 
information. Let me tell you how you got that 50,000. It was a 
guess based on percentages of people that may or may not file 
returns; and yet you put it out as the fact.
    Mr. Counihan. Sir, what I can respond to and what I can----
    Mr. Meadows. Was it not a guess?
    Mr. Counihan. What I can speak to you factually is the 
protections we put in place to ensure that the data that we 
give you, that I gave to you yesterday over the phone, for 
example, is accurate.
    Mr. Meadows. I yield back.
    Mr. Mulvaney. The time belongs to the gentleman from Ohio, 
and his time has expired.
    We are going to now recognize for a brief second round of 
questions, the ranking member, the gentleman from Pennsylvania, 
Mr. Cartwright, for an additional 5 minutes.
    Mr. Cartwright. Thank you, Mr. Chairman.
    Mr. Counihan, you are appearing before the Oversight and 
Government Reform Committee Subcommittee on Healthcare, and we 
are a collection of Members of Congress. Some of us voted for 
the ACA; some of us voted against it; some of us were not here 
when it came up to be voted on. My own view is that the ACA is 
the law and we need to try to smooth out the rough parts on it 
and make it work for Americans, and to amend it where it needs 
to be amended and make it better.
    But as much as we disagree about these things, I and the 
people across the aisle from me, we do not disagree about the 
function of this committee and of the Government employees who 
come before it. We demand Government transparency here in the 
OGR Committee. We demand accurate answers and timely answers. 
And I want you to commit to followup with Mr. Meadows and 
anyone on this committee in an accurate and timely fashion.
    I understand. It was brought up before. There was the 
question of including dental coverage in the numbers of people 
enrolled, and I think it was something like 400,000 people that 
got dental insurance were included in the overall numbers. But 
the bottom line was it was an honest mistake, but it inflated 
the numbers, so it looked like somebody was trying to paint a 
rosier picture than actually existed. And it came out of your 
office.
    It was wrong; it was pilloried here on this committee as 
being wrong, and in the national press; and I must say, I have 
to say it has to be fair to say that you emerged from that 
experience much chastened about bandying about numbers that 
later turned out to be wrong.
    So I encourage you, Mr. Counihan, be really careful 
because, as we continue to debate the merits of the ACA, as we 
continue to decide what needs to be changed about it going 
forward into the future, the more you make mistakes about 
numbers, inaccurate numbers, the more you make mistakes about 
tax forms, or whoever made that mistake, whether it was a 
software error or a human error, the more you damage the debate 
about the merits of the ACA. I appreciate your reticence about 
giving inaccurate numbers today, but I do encourage you to 
hurry up, get the accurate numbers, and get them to this 
committee.
    Do you undertake to do that, Mr. Counihan?
    Mr. Counihan. Yes.
    Mr. Cartwright. Well, I thank you, sir, and I yield back my 
time.
    Mr. Mulvaney. Thank the gentleman from Maryland.
    I am going to recognize myself an additional 5 minutes.
    Mr. Counihan, I am going to take a different line of 
questioning now. I am just going to ask you about some data, 
whether you do or do not track this kind of data; and I am 
going to use myself as an example.
    I am enrolled in the ObamaCare exchanges, as are many 
Members of Congress and many of our staff. I had coverage 
through my employment, as most folks do--most folks who have 
coverage get it through their work--prior to enrolling in the 
ObamaCare exchanges. So my question to you, sir, is am I 
counted in the roughly 10 or 11 million people who have 
enrolled?
    Mr. Counihan. You are enrolled through the Washington, DC. 
link exchange?
    Mr. Mulvaney. Correct. Yes, sir, the D.C. shop, I think.
    Mr. Counihan. You would be not part of the Federal exchange 
Marketplace numbers; you would be included as part of the 
State-based Marketplace numbers.
    Mr. Mulvaney. But when you say that 11 million people 
signed up for ObamaCare, me and my family, we are five of those 
11 million people?
    Mr. Counihan. Yes. As I understand it, you and your family 
are enrolled through D.C. Link?
    Mr. Mulvaney. Yes, sir.
    Mr. Counihan. Which is a State-based exchange.
    Mr. Mulvaney. But my kids are enrolled through South 
Carolina. My wife and I enrolled separately because they live 
back home.
    Mr. Counihan. OK.
    Mr. Mulvaney. But, generally speaking, we signed up through 
the exchanges.
    Mr. Counihan. OK. Well, I don't know if it is just you that 
is in D.C. Link or the family, but----
    Mr. Mulvaney. But we are all counted in the 10 to 11 
million people who have signed up for ObamaCare.
    Mr. Counihan. If you and your family are in D.C. Link, you 
would be counted.
    Mr. Mulvaney. And in South Carolina the folks are counted 
as well, aren't they?
    Mr. Counihan. In South Carolina, people that participate in 
the Federal Marketplace, yes.
    Mr. Mulvaney. Yes. OK, that is fine. And that is what we 
are. So here is my question to you: When you tell Congress, 
when you tell the public, when you tell the media that between 
10 and 11 million people have signed up for ObamaCare, do you 
track differently people who had insurance before and are now 
on the exchange?
    Mr. Counihan. When you say track, could you define that, 
please?
    Mr. Mulvaney. Do you know how many of the--let's use the 
number 11 million people. I will give you the benefit of the 
doubt here. let's say 11 million people have signed up for 
ObamaCare. Do you know how many of those folks were insured 
separately before they signed up for ObamaCare?
    Mr. Counihan. Not consistently.
    Mr. Mulvaney. So you don't know how many of those 11 
million people are newly covered.
    Mr. Counihan. Well, there are studies that are done by many 
organizations that track----
    Mr. Mulvaney. I am not asking about studies by outside 
organizations. I am asking about you folks. Do you track that 
number?
    Mr. Counihan. But the numbers that you are referring to is 
a combination of two sources; it is a combination of the 
Federal Marketplace and it is a combination of State 
Marketplaces.
    Mr. Mulvaney. Correct.
    Mr. Counihan. Some States track that information; some 
States do not.
    Mr. Mulvaney. Does the Federal exchange?
    Mr. Counihan. D.C. Link, as a matter of fact, does track 
that.
    Mr. Mulvaney. So you know how many people within the 
Federal exchanges have----
    Mr. Counihan. I said D.C. Link, which is the Washington, 
DC. State-based exchange.
    Mr. Mulvaney. OK. Well, good. We will look forward to 
getting that data, then.
    All right, with that, I have two and a half minutes left. I 
am going to yield the balance of my time, then, to the 
gentleman from North Carolina, Mr. Meadows.
    Mr. Meadows. So let's go back to the definition of fraud, 
would you agree, is knowing that you are doing something that 
is incorrect and not telling anybody? Would you agree with 
that? Is that fraud? Is that fraudulent?
    Mr. Counihan. Sir, I am not a lawyer.
    Mr. Meadows. OK. I am not a lawyer either. How would you 
define fraud? OK, maybe that is too hard of a question. So let 
me get to an easier question.
    Mr. Counihan. OK.
    Mr. Meadows. Are there people in the Affordable Care Act, 
through no fault of their own, not misrepresenting their 
income, that are getting the wrong subsidy?
    Mr. Counihan. The subsidies are very dependent on 
information provided by the----
    Mr. Meadows. That is not my question. My question is 
without their income, assuming everything they told you is 100 
percent accurate----
    Mr. Counihan. Right.
    Mr. Meadows [continuing]. Are there people in the 
Affordable Care Act that have done everything right that are 
getting the wrong subsidy?
    Mr. Counihan. If there are people that provided all the 
correct information, that updated their eligibility in a timely 
way----
    Mr. Meadows. That is not what I asked.
    Mr. Counihan. Well, I am trying----
    Mr. Meadows. I asked a very specific question. They did 
everything right. You auto re-enrolled them.
    Mr. Counihan. Yes.
    Mr. Meadows. Are they getting the wrong subsidy?
    Mr. Counihan. OK, I didn't----
    Mr. Meadows. You know where I am going with this.
    Mr. Counihan. I understand it clear now. You are talking 
about the enrollment for 2015 and the----
    Mr. Meadows. The auto re-enrolled people, are they getting 
the wrong subsidy?
    Mr. Counihan. If they did not come back into the 
marketplace and update their income and eligibility like we 
have strongly encouraged throughout the summer and throughout 
the fall, it is possible that they are getting an incorrect 
subsidy.
    Mr. Meadows. Yes or no, are they getting--you know the 
answer.
    Mr. Counihan. Congressman, with----
    Mr. Meadows. There are almost 2 million people, according 
to the numbers you gave me yesterday, that were auto re-
enrolled.
    Mr. Counihan. Correct.
    Mr. Meadows. Are the vast majority of those getting the 
wrong subsidy?
    Mr. Counihan. I don't know the answer to that.
    Mr. Meadows. OK. Well, let me answer it for you.
    Mr. Counihan. OK.
    Mr. Meadows. Because I have had to go do all the work, and 
I can tell you the answer to that is yes; and you know it is 
yes, and you are perpetrating a fraud on the American people. 
Do you not know that they are getting the wrong subsidy?
    Mr. Counihan. Sir, with all due respect, I am not sure that 
you can say that they are getting the wrong subsidy.
    Mr. Meadows. OK, I know that over 9,000 people in my 
district that were auto re-enrolled are getting the wrong 
subsidy because you used the subsidy from last year, and the 
Silver benchmark plan that they were on last year changed. So 
would you agree that 9,000 people in my district are getting 
the wrong subsidy?
    Mr. Counihan. I would not necessarily agree with that 
because unless you have different information, Congressman, and 
you very well might, but some of those 9,000 people could well 
have come back to Healthcare.gov, updated their income and 
eligibility, and be getting the 2015----
    Mr. Meadows. I am talking about passive re-enrollment. 
Listen, you are splitting hairs. I know this almost as well as 
you do now. The passive re-enrolled people, are they getting 
the wrong subsidy, yes or no?
    Mr. Counihan. If people did not come back to the 
Marketplace and did not update their eligibility, it is 
possible that they could be getting the 2014 subsidy, yes.
    Mr. Meadows. And you know that. So have you notified those 
people that it is incorrect?
    Mr. Counihan. We notified people, as I understand it--this 
was before my time, but when this decision was made last 
summer, so this would be the summer of 2014, there was a broad 
communication campaign to alert people to this decision.
    Mr. Meadows. In January, of the almost 2 million people, 
and it was more than that in January, but assuming that there 
is 2 million people that were auto re-enrolled, you know 
because 820,000 of them just got the wrong 195-As, you know 
approximately how many people are getting the wrong subsidy.
    Mr. Counihan. But, sir, those are actually independent 
actions.
    Mr. Meadows. I understand that.
    Mr. Walberg [presiding]. The gentleman s time from South 
Carolina has expired. Give another 5 minutes to the gentleman 
from North Carolina.
    Mr. Meadows. I thank you.
    So let's followup on this questioning. Do you have any 
estimates on how many people are getting the wrong subsidy 
today?
    Mr. Counihan. Sir, I do not. What I----
    Mr. Meadows. Have you looked for those?
    Mr. Counihan. What I can tell you is the information that I 
gave you yesterday, for example, showed that 1.96 million 
people were auto re-enrolled.
    Mr. Meadows. No, that is not correct.
    Mr. Counihan. What do you mean it is not correct?
    Mr. Meadows. Auto re-enrolled was 2.8 something, and then 
people came back and actually came back, so then the net number 
now is that number you just gave me.
    Mr. Counihan. That is correct. It was 2.83 as of December 
16th, 2014.
    Mr. Meadows. Well, December 16th is curious because open 
enrollment didn't stop and automatic re-enrollment didn't stop 
until December 18th. So why the 2-day difference?
    Mr. Counihan. But that was where we ended auto re-
enrollment.
    Mr. Meadows. So on December 16th that was the accurate 
number.
    Mr. Counihan. That is correct. And as a matter of fact, as 
you may recall, over the phone, you and I actually walked 
through----
    Mr. Meadows. Where the other numbers came from.
    Mr. Counihan. That is right.
    Mr. Meadows. Right.
    Mr. Counihan. That is right. And I am sorry, sir, just to 
insert one other point is that we continue to strongly 
encourage people to back to Healthcare.gov----
    Mr. Meadows. I will too because, according to my numbers, 
there are hundreds of thousands of people getting the wrong 
subsidy, and you know that that is correct, don't you?
    Mr. Counihan. Sir, we are encouraging people to go back to 
Healthcare.gov, update their eligibility----
    Mr. Meadows. That is a Statement; that is not an answer to 
my question. Do you know that hundreds of thousands of people 
are getting the wrong subsidy.
    Mr. Counihan. Sir, as I am telling you, we are encouraging 
people to get the right subsidy by updating their eligibility.
    Mr. Meadows. OK. Is it not fraud when you know that you are 
doing wrong and not informing the very people that you have 
been charged to support? Is that not fraudulent?
    Mr. Counihan. Sir, I don't know the legal definition of 
fraud, but what I can tell you is----
    Mr. Meadows. Is it ethical?
    Mr. Counihan [continuing]. Is when this decision was made, 
back last summer, there was broad communication and outreach 
about the decision. Going into the fall, when I arrived, that 
has been going on in the same and continues now.
    Mr. Meadows. So you support that decision. You support the 
decision to keep the American people in the dark. Most of these 
are very low-income folks or, at best, moderate income, and 
what they are going to get is a surprise, and you know they are 
going to get a surprise a year from now where you have given 
them the wrong subsidy.
    Mr. Counihan. The decision was made in the summer of last 
year. Since that time----
    Mr. Meadows. And you support that decision, obviously; you 
haven t changed it.
    Mr. Counihan. Since that decision was made, we continue to 
try to get people to go back and update their income to make 
sure exactly what you are saying does not occur.
    Mr. Meadows. But it is occurring, wouldn't you agree?
    Mr. Counihan. I would agree that it may occur.
    Mr. Meadows. You are an intelligent individual. Is it 
occurring or not?
    Mr. Counihan. When people do not update their eligibility, 
they are going to be having the 2014 APTC, the Advanced Premium 
Tax Credit, applied. But as I said, sir----
    Mr. Meadows. So if that is the case, so let's take your 
assumption. Out of all the people that auto re-enrolled in 
North Carolina, if that is the case, over half the counties 
have a different benchmark plan, so they would be getting a 
different subsidy, because their carrier is no longer the same 
carrier.
    Mr. Counihan. But, sir, I think you are forgetting one 
critical component, which is you are assuming that nobody is 
coming back to update their eligibility or income, and I don't 
that that is true.
    Mr. Meadows. No, I am not. I started out with that. These 
are passive re-enrolled people, which means they never came 
back.
    Mr. Counihan. That is correct, sir. But it is still 
possible for people to come and update their eligibility.
    Mr. Meadows. I understand that. So if they didn't come 
back, they are getting the wrong subsidy.
    Mr. Counihan. They would be getting the 2014 subsidy.
    Mr. Meadows. So is it wrong or right?
    Mr. Counihan. It is the 2014 subsidy, it is not the 2015 
subsidy.
    Mr. Meadows. OK. Did the subsidy--and I hate the way you 
are going through this, making me go through all of this--did 
the subsidy, in most of the counties in North Carolina and, in 
fact, across the Country, according to your press release, 
change because the Silver benchmark plan changed?
    Mr. Counihan. You are absolutely right, sir. It depends on 
the county. It is a county-specific issue. I can t recall, 
offhand, how many counties throughout the Country where that 
occurred.
    Mr. Meadows. Well, according to your press release, over 85 
percent of the people could have gotten a lower plan. So is 
that correct? I am sure you vetted that number.
    Mr. Counihan. There are instances where the----
    Mr. Meadows. Well, I am out of time, so I will yield back.
    I thank the patience of the chair.
    Mr. Walberg. Thank you, Mr. Meadows.
    The chair recognizes the gentleman from Tennessee.
    Mr. DesJarlais. Mr. Counihan, what would you say would be 
the best way to define success of the Affordable Healthcare 
Act?
    Mr. Counihan. That is a very good question. I think it is 
several things. I think one would be reduction of uninsured----
    Mr. DesJarlais. OK, well, let's talk about that. I think 
that s probably how you would define that.
    Mr. Counihan. I think it is multi-dimensional.
    Mr. DesJarlais. OK, but let's start with that because that 
is an important topic. That is what the President said, we 
needed this law because there are 30 million uninsured people 
in this Country, and we need to help those people.
    Did you write your opening Statement or did somebody write 
it for you?
    Mr. Counihan. It was written with my input.
    Mr. DesJarlais. OK. And when you talked about the number of 
uninsured, you told me it was the lowest in five decades. What 
was the uninsured rate five decades ago?
    Mr. Counihan. I am not sure.
    Mr. DesJarlais. OK, how do you know that it is the lowest 
if you don't know what that was, and how can you tell us today, 
tell this committee that we have the lowest rate of uninsured 
in five decades? I think Mr. Mulvaney asked if you could tell 
us within 1 million or even within 5 million, and you didn't 
give us an answer. Can you give me an answer now?
    Mr. Counihan. What I can tell you, and I am happy to 
provide this as part of my Statement, is that each of the data 
that has been cited has a reference point to where that came 
from.
    Mr. DesJarlais. OK. Well, you are telling us that there are 
11.6 million people signed up, so we don't know whether those 
were previously uninsured or people who just changed 
insurances.
    Mr. Counihan. So that is information that is tracked by 
some States. There are studies done periodically that do 
measure the impact on the uninsured both through Medicaid 
expansion and through the rollout of qualified health plans.
    Mr. DesJarlais. Do you feel like your opening Statement was 
accurate and truthful?
    Mr. Counihan. Yes.
    Mr. DesJarlais. OK, so your claim that we have the most 
uninsured can't be substantiated by you today because you can't 
give us any numbers. So are you just theorizing that that is 
the truth or is that the truth?
    Mr. Counihan. No. Every piece of information in my 
testimony, my opening Statement was qualified and cited to a 
specific data source.
    Mr. DesJarlais. Well, we worry a little bit about 
propaganda because this was a really unpopular law when the 
President tried to pass it; he had to cut all kinds of deals to 
get the votes to pass it. Then the IRS had to change the rule 
that the Supreme Court is going to be looking at here in a few 
weeks, King and Burwell, very important, and we will talk about 
that for a minute, too. But when you said that you send out 
weekly data, that is accurate; every week you put that out it 
is accurate.
    Mr. Counihan. Yes.
    Mr. DesJarlais. But today you can't tell us what is 
accurate or not.
    Mr. Counihan. No, I think I didn't speak properly. What I 
said was that in my opening Statement, whenever there was a 
reference to information or to data, that it was cited.
    Mr. DesJarlais. Well, if you were the President, you would 
want to make your program look go. So by saying that you have 
the lowest number of uninsured in five decades, that is 
obviously an attempt to say, hey, this thing is working. But 
when we ask you those numbers, you can't give them to us. So is 
this just propaganda? Is this the President trying to make his 
law look better than it is?
    Mr. Counihan. What I tried to say, and perhaps I didn't say 
it as clearly as I should, is that any data or information that 
I share with this committee has to be spot-on.
    Mr. DesJarlais. OK, are the weekly reports spot-on?
    Mr. Counihan. They are.
    Mr. DesJarlais. OK. Actually, there seems to be a 
disconnect here because every week you can give spot-on data, 
but today, in our committee, you can't tell any of us spot-on 
data.
    Mr. Counihan. I think I gave some spot-on data, sir.
    Mr. DesJarlais. It would be squeezed in between a lot of 
non-answers.
    I asked you earlier how do you get the money back from the 
illegals who have gotten or the people you can't verify should 
be getting healthcare, and I don't think you had time to 
answer. Mr. Jordan brought it up as well. How do we get the 
money back, subsidies that were given to people illegally?
    Mr. Counihan. What I tried to describe, sir, was the 
process that we use that is very specific to verify people's 
eligibility.
    Mr. DesJarlais. How do we get the money back?
    Mr. Counihan. Specific to your point about getting money 
back would relate to how much money has been inappropriately 
spent, and I don't know the answer to either one of those two. 
I don't have the facts behind that.
    Mr. DesJarlais. And you told Mr. Jordan that you didn't 
talk to anybody about the impact that the President's executive 
action may have?
    Mr. Counihan. Correct.
    Mr. DesJarlais. OK, it sounds like something we might want 
to be concerned about because it sounds like we are talking 
about a lot of money. And you said Secretary Burwell handled 
the issue of what is going to happen or not in King.
    Mr. Counihan. Yes.
    Mr. DesJarlais. OK, so you don't have an opinion on that? 
These 11 million people that you are here today saying that 
this law has been a success because you are helping cover, you 
don't have an answer for them if the Supreme Court strikes down 
the subsidies from the employees?
    Mr. Counihan. The secretary has spoken for us.
    Mr. DesJarlais. And what she said is that they don't have a 
plan, they don't need a plan. Do you all know something we 
don't know about the Supreme Court decision?
    Mr. Counihan. The secretary has spoken for us. I don't have 
a comment on that issue, sir.
    Mr. DesJarlais. Are you comfortable with her answer? I 
mean, you have to be able to think for yourself. Does that make 
you feel a little bit nervous about what might happen if it is 
not ruled in your favor?
    Mr. Counihan. I am very comfortable with the secretary s 
answer.
    Mr. DesJarlais. All right, thank you for your time.
    Mr. Counihan. Thank you.
    Mr. Walberg. The gentleman from Ohio is recognized for 1 
minute.
    Mr. Jordan. I thank the chairman. Just real quickly, I 
wanted to followup where the gentleman from Tennessee was.
    So you say you have this elaborate fail-safe process that 
no illegals are going to sign up for the Affordable Care Act; 
yet, you have 50,000 folks who have already filed their tax 
returns with false information that you all gave to them. Can 
you assure this committee and, more importantly, the American 
people that no illegals have signed up for ObamaCare and 
received any kind of subsidy or any kind of benefit?
    Mr. Counihan. What I described----
    Mr. Jordan. No, no, that is a real simple question. Can you 
assure this committee and, more importantly, the American 
people that no illegals have signed up and received benefits 
from ObamaCare?
    Mr. Counihan. What I have tried to do is to describe the 
process we do to validate----
    Mr. Jordan. That is not the question. You did that with my 
line of questioning the last time. I am asking you can you 
assure us that no one has received benefits who is an illegal?
    Mr. Counihan. Sir, we have an elaborate validation 
process----
    Mr. Jordan. Can you----
    Mr. Counihan [continuing]. And I am confident in the 
process.
    Mr. Jordan. We have been here now an hour and a half, and 
we would like one time for you to give us just a yes or no when 
we ask a question. Mr. Meadows tried for 15 minutes to get you 
to answer a question. We would like you to answer this one 
question because it is important to the debate that is taking 
place in Congress this week, important debate that the American 
people care pretty deeply about. Can you assure this committee 
and the American people that no one, no illegal has received 
benefits under the Affordable Care Act?
    Mr. Counihan. Sir, I am going to repeat----
    Mr. Jordan. OK, so here is the point, Mr. Counihan.
    Mr. Counihan. We have a very----
    Mr. Jordan. If your fail-safe, wonderful approach to make 
sure this doesn't happen, if it is so good, that would be easy 
for you to say, yes, I can assure you. But my guess is you 
won't say yes because obviously your approach on sending out 
tax information to these folks is not fail-safe. You have 
50,000 people already filed, 800,000 people who got false 
information. So it is a logical question for the American 
people to ask, now, if that happened, might some illegals be 
getting benefits under the Affordable Care Act today. And you 
should be able to assure the American citizens that that is not 
happening, and you won't do it.
    Mr. Counihan. What I can assure the American people is the 
same assurance I give you and the rest of the committee, which 
is the discipline of the process for validating eligibility.
    Mr. Jordan. This is amazing, Mr. Chairman. This is amazing.
    Mr. Walberg. Thank you, Mr. Jordan.
    The chair recognizes the gentleman from Florida.
    Mr. DeSantis. Good afternoon, sir. The President's program, 
executive program that is subject of much controversy, where he 
is going to issue up to 5 million work permits to people who 
are in the Country illegally, Social Security numbers, when 
they get those documents, would they then be eligible to have 
ObamaCare subsidies?
    Mr. Counihan. Sir, I need to educate myself better in the 
details of that.
    Mr. DeSantis. And are you aware if a business, if faced 
with who otherwise is subject to the ObamaCare system, has a 
choice to hire either a U.S. citizen or somebody with one of 
these work permits, isn't it the case that the U.S. citizen 
would be subject to the employer mandate? In other words, the 
employer would have to provide the ObamaCare-prescribed 
insurance, but somebody who is here illegally, the employer 
would actually not have to provide it; therefore, the person 
who is here illegally can be hired at a lower price?
    Mr. Counihan. Well, sir, and I am not a labor lawyer and I 
am not an expert in this, but----
    Mr. DeSantis. With the employer mandate, though, if 
somebody has a work permit and they are not here legally, the 
employer, it is as if that doesn't apply to them, right?
    Mr. Counihan. I think there are some consequences for 
hiring illegal aliens if I am an employer.
    Mr. DeSantis. Well, the President is issuing work permits. 
I am saying if he issues the work permits, then that is 
basically a signal to the employer that you can hire these 
people. Otherwise, why would you issue the work permits?
    Mr. Counihan. You know, sir, with deep respect, this is a 
Department of Labor issue. This is beyond my bailiwick.
    Mr. DeSantis. It is an ObamaCare issue, because the reason 
why you would have a hiring incentive, perhaps, is because of 
the disparate treatment that folks will get the way the law is 
written. So I just think it is important for the American 
people to know if these work permits enable people to go and 
get subsidies, then taxpayers would want to know that. If they 
are actually exempt from the employer mandate, then that seems 
to me to provide an incentive for employers to hire folks who 
have those, who are not legally in the Country but have the 
work permit. And, yes, they are hiring, but it is an issue that 
is germane to the patient protection in Affordable Care Act and 
its requirements.
    Mr. Counihan. Sir, I understand the question. It calls for 
speculation.
    Mr. DeSantis. Why would it call for speculation? The law 
has been on the books since 2010. wouldn't we know?
    Mr. Counihan. My understanding of your question is you are 
asking me to speculate if there is some type of incentive in 
place for an employer to hire a certain type of work force. 
That is my understanding of your question.
    Mr. DeSantis. So you look at the law on the books, you know 
that these work permits are coming down the pike, so it is a 
simple question of if somebody is illegally here and they get a 
work permit, what is the interaction with that and the 
Affordable Care Act. So it is not a speculation; it is looking 
at the law on the books and then explaining what the department 
s position would be.
    Mr. Counihan. Sir, I need to think through your question.
    Mr. DeSantis. So can you reply to us in writing and we can 
lay out the question? Because I just think it is important to 
know. Some of this stuff, it seems, that has frustrated a lot 
of the American people is kind of done on the fly and we don't 
even know the rules. This one we need to know one way or 
another.
    With that, I am going to yield the remainder of my time to 
my friend from North Carolina, Mr. Meadows.
    Mr. Walberg. The gentleman from North Carolina is 
recognized.
    Mr. Meadows. I thank the gentleman from Florida.
    So let me ask the last question, since you know we would 
not have had this hearing if you had just had responded to any 
of the 23 emails. Do you realize that, that if you just 
responded to my simple request, that this wouldn't have had to 
happen? So let me ask this question. How many people were put 
in a plan other than the exact plan that they had in 2014?
    Mr. Counihan. I don't know the answer to that yet. I know 
that that is a critical question and that is information that 
we will be getting.
    Mr. Meadows. So it is your testimony here today that you do 
not know the number, be careful because you are under oath, you 
do not know the number of the number of people that were put in 
a plan other than the one they were in 2014, after 70 days of 
me asking?
    Mr. Counihan. Sir, I do not have a number I would share 
with you. I don't have a verified number that I am confident to 
share with you.
    Mr. Meadows. OK. Well, give me the non-verified; we will 
put a big qualifier around it. How many?
    Mr. Counihan. Sir, with the deepest respect, I am not going 
to share a number with you that is not verified.
    Mr. Meadows. So you have done analysis.
    Mr. Counihan. We are doing analysis.
    Mr. Meadows. Would you say there are over 800,000 of them?
    Mr. Counihan. I think the number is significantly smaller 
than that.
    Mr. Meadows. So you have a ballpark.
    Mr. Counihan. I have a ballpark. I am not sharing a 
ballpark until it is verified, sir.
    Mr. Meadows. All right, so you put between 500,000 and 
800,000 people in a plan other than the one they had had, so 
they may not have the same doctor.
    Mr. Counihan. The issue about provider networks--and you 
and I have had a discussion about this--is actually independent 
of that transfer.
    Mr. Meadows. It is. Yes. So who decides who is in that, you 
or the insurance companies?
    Mr. Counihan. And you and I discussed this as well.
    Mr. Meadows. And I know the answer. So go ahead and answer 
it for the American people.
    Mr. Counihan. OK, because I come from that world. That is a 
relationship, a contractual relationship, as you know, that is 
created between the insurance company and the providers.
    Mr. Meadows. All right. And that is exactly where I wanted 
to go. So the insurance company and the patient are the ones 
that have the contractual obligation.
    Mr. Counihan. You mean the insurance company and the 
provider.
    Mr. Meadows. And the provider.
    Mr. Counihan. Yes.
    Mr. Meadows. Right. So as we have done that, you have 
reached in and you have decided for over a half million people 
what plan they should have. Did you not do that?
    Mr. Counihan. Sir, in the first place, that number that you 
threw out is not a number that I would necessarily support. You 
said a half million people. That is one.
    Mr. Meadows. So you say it is less than that.
    Mr. Counihan. As I said, I believe it is less than that, 
but----
    Mr. Meadows. Well, you have people behind you. If they are 
not going to help you with it, don't bring them. They know the 
number. You know the number.
    Mr. Counihan. Sir, you and I have discussed this. I am----
    Mr. Meadows. All right, can we get that answer within the 
next 7 days?
    Mr. Counihan. Sir, I will get that answer to you as quickly 
as I can.
    Mr. Meadows. Mr. Chairman, I would yield back, but before 
yielding back I would suggest the committee strongly look at 
subpoenaing all the data, all the correspondence, because it is 
obvious that this gentleman is stonewalling the committee and, 
more important, it is not the committee, it is the American 
people, and I take that very seriously. And I thank the 
patience of the chair.
    Mr. Walberg. Thank you, Mr. Meadows.
    I would like to yield myself just a minute or two to 
finalize a couple questions here, then we will close the 
hearing for the day.
    The Navigators program was funded through Federal grants to 
outreach groups so that they could enroll individuals in their 
exchanges. Our review has uncovered that this program, in 2014, 
had a negligible effect. The question is this: Mr. Counihan, 
was the Navigators program in operation for this last 
enrollment period?
    Mr. Counihan. Yes.
    Mr. Walberg. How much funding was given to these support 
groups?
    Mr. Counihan. I need to confirm that with you; I am not 
exactly sure. I have that information, but I can't remember it 
right offhand.
    Mr. Walberg. Where do you have the information?
    Mr. Counihan. In my office.
    Mr. Walberg. In your office. You didn't bring the 
information with you?
    Mr. Counihan. Not for that specific question.
    Mr. Walberg. OK. Did you conduct any analysis on whether 
the Navigator program was actually improving the quality of 
applications submitted, that is, they had fewer mistakes?
    Mr. Counihan. We have done a lot of analysis about the 
Navigator and a sister program.
    Mr. Walberg. And why did you feel like you had a need to do 
that?
    Mr. Counihan. I am sorry, why did we feel?
    Mr. Walberg. Yes.
    Mr. Counihan. Well, to be quite frank with you, sir, it is 
because it involves taxpayer money. We want to be appropriate 
stewards of taxpayer money; it is all of our money and we want 
to make sure we are getting the proper return.
    Mr. Walberg. You want to be properly stewards of taxpayers 
money, but 52 percent of them have trouble as far as whether 
they are paying back $530 I believe was the exact number?
    Mr. Counihan. I am unfamiliar with that quote. I know you 
referred to H&R Block or something like that. I don't know 
about that.
    Mr. Walberg. I wouldn't think you would.
    You know, I will just be frank with you. I am fairly new at 
the process here, have sat through a few hearings, but I would 
venture to guess if we were to ask you all these questions or 
all the answers to all the questions we asked that you did not 
know, if we were to extend a week to you, is that something 
that you would be willing to do to bring back the answers to 
multiple questions that there was basically I can't recall?
    Mr. Counihan. Sir, I am responsible for the program. It is 
my responsibility to be accountable to the department, as well 
as to you, for information that you need.
    Mr. Walberg. That was my final question, and I still didn't 
get a yes or no. If you were extended a week, would you be able 
to come back with most of this information?
    Mr. Counihan. Yes.
    Mr. Walberg. Thank you.
    Mr. Meadows. Would the gentleman yield for one point of 
clarification?
    Mr. Walberg. The gentleman is recognized from North 
Carolina.
    Mr. Meadows. You mentioned that automatic re-enrollment 
ended on December 16th. That highlighted comes from your 
Website. And I know that you can't read that from there, but 
your Website actually says that auto re-enrollment started on 
December 16th and closed on December 18th. So is----
    Mr. Counihan. No.
    Mr. Meadows. I mean, I just pulled that off, because all I 
have to go by is what you put on the Web.
    Mr. Counihan. I understand.
    Mr. Meadows. So what you are saying is it is vetted 
incorrectly on your Website.
    Mr. Counihan. No, I am not saying that. What I am saying is 
I can't see that document, to be frank with you----
    Mr. Meadows. Well, you can have them pull it up, because it 
is on Healthcare.gov right now, and it says that auto re-
enrollment stopped on December 18th.
    Mr. Counihan. That is because of processing time. That is 
the difference between the actual stop date of the 16th and the 
processing time to the 18th.
    Mr. Meadows. All right. Thank you for that clarification.
    Mr. Walberg. Thank you, Mr. Meadows.
    My closing remark would be one of the things that I believe 
that could help what I feel like is a very poor performance is 
a very prompt response to many of these questions, and I hope 
that we look forward, we all look forward to some of these 
vital answers that are important to the American people.
    I would like to thank our witness for sitting in that seat 
for the last hour and 40 minutes and doing your best job to 
answer, I hope, the many questions.
    If there is no further business, without objection, the 
committee stands adjourned.
    [Whereupon, at 11:50 a.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
